Case: 17-3010

Document: 003113269205

Page: 1

Date Filed: 06/20/2019

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 17-3010
________________
BRADLEY BEERS;
JOSEPH DIVITA*,
Appellants
v.
ATTORNEY GENERAL UNITED STATES OF AMERICA;
DEPARTMENT OF JUSTICE; UNITED STATES BUREAU
OF ALCOHOL TOBACCO FIREARMS & EXPLOSIVES;
THOMAS E. BRANDON, Deputy Director of the ATF;
RONALD B. TURK, Associates Deputy Director/ Chief
Operating Office of the ATF; FEDERAL BUREAU OF
INVESTIGATION; DIRECTOR FEDERAL BUREAU OF
INVESTIGATION; UNITED STATES OF AMERICA;
PENNSYLVANIA ATTORNEY GENERAL;
PENNSYLVANIA STATE POLICE; TYREE BLOCKER,
Commissioner of the Pennsylvania State Police;
EDWARD DONNELLY, Bucks County Sheriff;
BUCKS COUNTY SHERIFFS DEPARTMENT; BUCKS
COUNTY DISTRICT ATTORNEY
*(Party Dismissed Pursuant to Court Order dated 02/13/18)

Case: 17-3010

Document: 003113269205

Page: 2

Date Filed: 06/20/2019

_
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D. C. Civil No. 2-16-cv-06440)
District Judge: Honorable Legrome D. Davis
________________
Argued on July 12, 2018
Before: SHWARTZ, ROTH and RENDELL, Circuit Judges
(Opinion filed: June 20, 2019)
Michael P. Gottlieb
Vangrossi & Recchuiti
319 Swede Street
Norristown, PA 19401

(ARGUED)

Counsel for Appellant
Tyce R. Walters
(ARGUED)
Patrick Nemeroff
Michael S. Raab
United States Department of Justice
Civil Division
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Counsel for Appellees

2

Case: 17-3010

Document: 003113269205

Page: 3

Date Filed: 06/20/2019

_
OPINION
_
ROTH, Circuit Judge
INTRODUCTION
Federal law prohibits the possession of firearms by
anyone who has previously been adjudicated as mentally ill or
committed to a mental institution. Bradley Beers challenges
this law on the ground that, as applied to him, it violates the
Second Amendment.
Mentally ill individuals have traditionally been
prohibited from possessing guns because they were considered
to be a danger to themselves and to others. Beers cannot
factually distinguish himself from this historically-barred class
because a court has determined that Beers was a danger to
himself and thereby required that he be committed to a mental
institution. Beers contends, however, that, although he was
previously involuntarily institutionalized, he has since been
rehabilitated. For this reason, he argues that his rehabilitation
distinguishes his circumstances from those in the historicallybarred class.
The issue that we must consider then is whether passage
of time and evidence of rehabilitation are relevant to our
inquiry concerning the constitutionality of the prohibition of
the possession of firearms by Beers.

3

Case: 17-3010

Document: 003113269205

Page: 4

Date Filed: 06/20/2019

BACKGROUND
Beers was involuntarily committed to a psychiatric
inpatient hospital on December 28, 2005, after he told his
mother that he was suicidal and put a gun in his mouth. Beers’s
mother was particularly concerned because Beers kept a gun in
his room and had the means to kill himself. Beers was
involuntarily admitted to the hospital for up to 120 hours
pursuant to Section 302 of Pennsylvania’s Mental Health
Procedures Act (MHPA). 1
The examining physician
determined that Beers was suicidal and that inpatient treatment
was required for his safety.
On December 29, 2005, and again on January 3, 2006,
a Pennsylvania court extended Beers’s involuntary
commitment pursuant to Sections 303 and 304 of the MHPA,
concluding that he presented a danger to himself or to others. 2
At the court hearings for the extensions, the Bucks County

1

50 Pa. C.S. § 7302 (“Emergency examination may be
undertaken at a treatment facility upon the certification of a
physician stating the need for such examination . . ..”).
2
See 50 Pa. C.S. § 7303(a) (“Application for extended
involuntary emergency treatment may be made for any person
who is being treated pursuant to section 302 whenever the
facility determines that the need for emergency treatment is
likely to extend beyond 120 hours.”); id. § 7304(a)(2) (“Where
a petition is filed for a person already subject to involuntary
treatment, it shall be sufficient to represent, and upon hearing
to reestablish . . . that his condition continues to evidence a
clear and present danger to himself or others . . . ..” (emphasis
added)).

4

Case: 17-3010

Document: 003113269205

Page: 5

Date Filed: 06/20/2019

Court of Common Pleas determined that Beers was “severely
mentally disabled and in need of treatment.” 3
Beers has had no mental health treatment since 2006. A
physician who examined Beers in 2013 opined that Beers was
able “to safely handle firearms again without risk of harm to
himself or others.” 4 Shortly after he was discharged from his
commitment in 2006, Beers attempted to buy a firearm but was
denied because a background check revealed that he had been
involuntarily committed to a mental institution.
Beers subsequently filed a complaint in the United
States District Court for the Eastern District of Pennsylvania,
asserting that 18 U.S.C. § 922(g)(4), 5 the federal statute
prohibiting him from possessing a gun, was unconstitutional as
applied to him. 6 The government moved to dismiss the
complaint.
Applying the two-part test derived from our rulings in
United States v. Marzzarella 7 and Binderup v. Attorney
General, 8 the District Court first determined that Beers could
3

App. 8-9; Supp. App. 9-10.
App. 10.
5
“It shall be unlawful for any person . . . who has been
adjudicated as a mental defective or who has been committed
to a mental institution . . . to . . . possess in or affecting
commerce, any firearm or ammunition; or to receive any
firearm or ammunition which has been shipped or transported
in interstate or foreign commerce.” 18 U.S.C. § 922(g)(4).
6
Beers also asserted due process and equal protection
violations. These claims were not raised on appeal.
7
614 F.3d 85 (3d Cir. 2010).
8
836 F.3d 336 (3d Cir. 2016).
4

5

Case: 17-3010

Document: 003113269205

Page: 6

Date Filed: 06/20/2019

not distinguish his circumstances from those of mentally ill
individuals who were subject to the longstanding prohibitions
on firearm possession. The court next held that, pursuant to
our ruling in Binderup, evidence of Beers’s rehabilitation was
irrelevant; thus, Beers could not rely on such evidence to
distinguish his circumstances. As a result, the court ruled that
§ 922(g)(4) did not impose a burden on conduct falling within
the scope of the Second Amendment and was therefore
constitutional as applied to Beers. The District Court
dismissed Beers’s complaint. Beers appeals the District
Court’s rejection of his as-applied Second Amendment
challenge to § 922(g)(4). 9
DISCUSSION 10
I.

The Framework for Second Amendment Challenges

When a challenge is made to a law prohibiting the
possession of firearms, we follow our rulings in Marzzarella
and Binderup. Pursuant to these cases, we are required to
9

While the government’s motion to dismiss Beers’s complaint
in the District Court was still pending, a Pennsylvania court
restored Beers’s state law right to possess a firearm, pursuant
to 18 Pa. C.S. § 6105(f), which allows the restoration of state
gun ownership rights. Because § 6105(f) does not satisfy
federal requirements allowing for acknowledgement by the
federal government of the state’s restoration of gun rights,
Beers remains subject to the prohibition of § 922(g)(4). See
Pub. L. No. 110-180 § 105, 121 Stat. 2559, 2569-70 (2008).
10
The District Court had jurisdiction under 28 U.S.C. §§ 1331,
2201, 2202, and 2412, and we have jurisdiction under 28
U.S.C. § 1291.

6

Case: 17-3010

Document: 003113269205

Page: 7

Date Filed: 06/20/2019

conduct a two-part inquiry. First, we look at the historic,
traditional justifications for barring a class of individuals from
possessing guns and ask whether the challenger can distinguish
his circumstances from those of individuals in the historicallybarred class. If the challenger makes such a showing, we
proceed to the second step, which requires the government to
demonstrate that the challenged law satisfies some form of
heightened scrutiny.
A.

The Supreme Court’s Decision in District of
Columbia v. Heller

Our jurisprudence in Second Amendment cases is based
on the Supreme Court’s ruling in District of Columbia v.
Heller. 11 The Second Amendment provides that “[a] wellregulated Militia, being necessary to the security of a free State,
the right of the people to keep and bear Arms, shall not be
infringed.” 12 Heller involved a challenge to a District of
Columbia law that banned handgun possession, including the
possession of handguns in the home. The Supreme Court held
in Heller that the Second Amendment guarantees to an
individual the right – not unlimited – to keep and bear arms. 13
The Court recognized that “[a]t the ‘core’ of the Second
Amendment is the right of ‘law-abiding, responsible citizens
to use arms in defense of hearth and home.’” 14 Because the
District of Columbia law in question violated this core Second
Amendment right, the Court ruled that it was unconstitutional.
11

554 U.S. 570 (2008).
U.S. CONST. amend. II.
13
Heller, 554 U.S. at 595.
14
Binderup, 836 F.3d at 343 (quoting Heller, 554 U.S. at 63435).
12

7

Case: 17-3010

Document: 003113269205

Page: 8

Date Filed: 06/20/2019

However, in articulating the guarantee to keep and bear
arms, the Supreme Court recognized that “the right was not a
right to keep and carry any weapon whatsoever in any manner
whatsoever and for whatever purpose.” 15 Indeed, nothing in
Heller, according to the Court, “should be taken to cast doubt
on longstanding prohibitions on the possession of firearms by
felons and the mentally ill.” 16 The Court therefore identified
such prohibitions as “presumptively lawful,” because they
affect classes of individuals who, historically, have not had the
right to keep and bear arms. 17
B.

The Third Circuit’s Two-Part Test for
Analyzing Second Amendment Challenges

Our first occasion after Heller to decide a Second
Amendment challenge involved a statute prohibiting the
possession of handguns with obliterated serial numbers. In
Marzzarella, we applied a two-part test for evaluating Second
Amendment challenges: “First, we ask whether the challenged
law imposes a burden on conduct falling within the scope of

15

Heller, 554 U.S. at 626.
Id.
17
Id. at 627 n.26; see also Binderup, 836 F.3d at 343 (“These
measures comport with the Second Amendment because they
affect individuals or conduct unprotected by the right to keep
and bear arms.” (citing Heller, 554 U.S. at 631, 635)); United
States v. Barton, 633 F.3d 168, 171 (3d Cir. 2011) (list of
presumptively lawful regulations reflects historical
understanding of Second Amendment right), overruled on
other grounds by Binderup, 836 F.3d at 349, 350.
16

8

Case: 17-3010

Document: 003113269205

Page: 9

Date Filed: 06/20/2019

the Second Amendment’s guarantee.” 18 If it does not, we need
not proceed to
the second step. If it does, however, we assess the law under
heightened scrutiny. 19 Where the law survives heightened
scrutiny, it is constitutional; if not, it is invalid. 20 In
Marzzarella, we held that even if the law did impose a burden
on protected conduct, in view of the government’s interest in
tracing weapons through serial numbers, the law survived
intermediate scrutiny. 21
A year later, in United States v. Barton, we heard a
challenge to 18 U.S.C § 922(g)(1), the federal statute banning
felons from gun possession. 22 In Barton, we determined that,
even though felon dispossession statutes were presumptively
lawful under Heller, § 922(g)(1) could still be challenged as it
applied to individuals. 23 In evaluating such a challenge, we
18

Marzzarella, 614 F.3d at 89.
The Heller Court stopped short of announcing the level of
scrutiny that applies when a law infringes on Second
Amendment rights. It cautioned nevertheless that rational
basis review would not suffice. 544 U.S. at 628 n.27 (“If all
that was required to overcome the right to keep and bear arms
was a rational basis, the Second Amendment . . . would have
no effect.”).
20
Marzzarella, 614 F.3d at 89.
21
Id. at 95, 98-99.
22
633 F.3d at 173-75. In Barton, we also denied the
challenger’s facial attack of the statute “because Heller
requires that we ‘presume,’ under most circumstances, that
felon dispossession statutes regulate conduct which is
unprotected by the Second Amendment.” Id. at 172.
23
Id. at 173.
19

9

Case: 17-3010

Document: 003113269205

Page: 10

Date Filed: 06/20/2019

turned to the traditional justifications underlying the §
922(g)(1) ban on gun possession by felons to determine
whether
these
justifications
supported
permanent
disarmament. This review was informed by the historical
approach the Court applied in Heller. There, the Court
explained that it would “expound upon the historical
justifications for” presumptively lawful regulations “if and
when those [regulations] come before [it].” 24
In Barton, our historical review informed us that,
traditionally, individuals who committed violent offenses were
barred from gun possession; “the common law right to keep
and bear arms did not extend to this group.” 25 We then held
that to successfully raise an as-applied challenge, the
challenger had to distinguish his circumstances from those of
persons historically-barred from possession of a firearm by
demonstrating either (1) that he was convicted of a minor, nonviolent crime and thus “he is no more dangerous than a typical
law-abiding citizen”; or (2) that a significant time has passed
so that he has been “rehabilitated” and “poses no continuing
threat to society.” 26 Applying this standard, we concluded that
the challenger failed to distinguish his circumstances, which
included prior convictions for possession of cocaine with intent
to distribute and for receipt of a stolen firearm. 27 As a result,
we held that the statute was constitutional as applied to him. 28

24

Id. (quoting Heller, 554 U.S. at 635).
Id.
26
Id. at 174.
27
Id.
28
Id. at 175.
25

10

Case: 17-3010

Document: 003113269205

Page: 11

Date Filed: 06/20/2019

Five years after Barton, in Binderup, we decided
another as-applied challenge to § 922(g)(1), this time by two
individuals, Daniel Binderup and Julio Suarez, seeking to
distinguish themselves from the historically-barred class of
felons. Many years earlier, the challengers had been convicted
of potentially serious offenses, defined by the state as
misdemeanors. They had since led lives free of criminal
convictions, except for Suarez who had one conviction for
driving under the influence of alcohol. 29 We were tasked with
determining whether § 922(g)(1) was unconstitutional as
applied to the challengers, given their “rehabilitation” after the
offenses they had committed.
In deciding the as-applied challenge, we clarified the
applicable test. We explained that, at step one of Marzzarella,
a challenger “must (1) identify the traditional justifications for
excluding from Second Amendment protections the class of
which he appears to be a member, and then (2) present facts
about himself and his background that distinguish his
circumstances from those of persons in the historically barred
class.” 30 If a challenger passes these two hurdles, “the burden
shifts to the Government to demonstrate that the regulation
satisfies some form of heightened scrutiny . . . at step two of
the Marzzarella analysis.” 31
In making this clarification, we overruled Barton
insofar as, at the first step, it allowed a challenger to distinguish
himself from a historically-barred class by demonstrating the

29

Binderup, 836 F.3d at 340.
Id. at 346-47 (internal citations omitted).
31
Id. at 347.
30

11

Case: 17-3010

Document: 003113269205

Page: 12

Date Filed: 06/20/2019

passage of time or evidence of rehabilitation. 32 As we noted in
Binderup, the historical justification for disarming felons was
that they were “unvirtuous,” a term historically applied to
individuals who had committed “serious” crimes. 33 Where the
historical justification for disarming felons was because they
had committed serious crimes, risk of violent recidivism was
irrelevant, “and the seriousness of the purportedly
disqualifying offense is our sole focus throughout
Marzzarella’s first step.” 34 We therefore emphasized that
neither passage of time nor evidence of rehabilitation “can
restore Second Amendment rights that were forfeited.” 35 After
Binderup, the only way a felon can distinguish himself from
the historically-barred class of individuals who have been
convicted of serious crimes is by demonstrating that his
conviction was for a non-serious crime, i.e., that he is literally
not a part of the historically-barred class. 36
Three factors supported our conclusion that Barton’s
emphasis on rehabilitation evidence was misplaced. First,
there was no historical support for the proposition that Second
Amendment rights could be restored after they were forfeited,
and historical context was the guiding principle for our Second
Amendment analysis. 37 Second, to the extent such a
restoration remedy was available, it was a matter of

32

Id. at 349.
Id. at 348.
34
Id. at 350 (emphasis added).
35
Id.
36
Id. at 349-50
37
Id. at 350.
33

12

Case: 17-3010

Document: 003113269205

Page: 13

Date Filed: 06/20/2019

congressional grace. 38 Third, and most importantly, we held
that courts are “not ‘institutionally equipped’ to conduct ‘a

38

Id. As Judge Fuentes explained in his concurrence, by a
separate provision of the federal gun laws, 18 U.S.C. § 925(c),
Congress provided an opportunity for individuals who were
prohibited from possessing guns to apply to the Attorney
General for “relief from the disabilities imposed by Federal
laws.” Id. at 402. The Attorney General was given the power
to “grant such relief if it is established to his satisfaction that
the circumstances regarding the disability, and the applicant’s
record and reputation, are such that the applicant will not be
likely to act in a manner dangerous to public safety . . ..” 18
U.S.C. § 925(c). Pursuant to the statute, an applicant who is
denied relief by the Attorney General may petition a district
court for relief.
This relief provision, however, has been “rendered
inoperative” because Congress defunded this program in 1992,
and an “embargo on funds has remained in place ever since.”
Binderup, 836 F.3d at 402-03 (Fuentes, J., concurring).
“Congress effectively wr[ote] § 925(c) out of the statute
books” because it concluded that the task of granting individual
applications was “a very difficult and subjective task which
could have devastating consequences for innocent citizens if
the wrong decision is made.” Id. at 403 (quoting S. Rep. No.
102-353, at 19). A House report also stated that “too many of
these felons whose gun ownership rights were restored went on
to commit violent crimes with firearms.” Id. (citing H.R. Rep.
No. 104-183, at 15). Congress therefore concluded that a
system for restoring gun rights was unworkable. Id.

13

Case: 17-3010

Document: 003113269205

Page: 14

Date Filed: 06/20/2019

neutral, wide-ranging investigation’ into post-conviction
assertions of rehabilitation.” 39
II.

Whether § 922(g)(4) Burdens Conduct Falling
Within the Scope of the Second Amendment

Turning to the case before us and the constitutionality
of § 922(g)(4) as applied to Beers, Marzzarella and Binderup
require Beers to demonstrate that this statute burdens conduct
protected by the Second Amendment. To do so, he must “(1)
identify the traditional justifications for excluding from Second
Amendment protections the class of which he appears to be a
member, and then (2) present facts about himself and his
39

Id. at 350 (quoting United States v. Bean, 537 U.S. 71, 77
(2002)). After Congress defunded the § 925(c) restoration
program described above, individuals barred from possessing
firearms under federal law began filing suits asking federal
district courts to review their restoration applications in the
first instance. We ruled in Pontarelli v. United States
Department of Treasury that Congress’s denial of funds to
process § 925(c) restoration applications stripped the federal
district courts of jurisdiction to review the Justice
Department’s refusal to act on those applications. 285 F.3d
216, 230 (3d Cir. 2002). We also noted the institutional
limitations and lack of resources of federal courts to conduct
detailed investigations of applicants’ backgrounds and their
recent conduct. Id. at 230-31. The Supreme Court later
confirmed this understanding in holding that the § 925(c)
“inquiry into [an] applicant’s background [is] a function best
performed by the Executive, which, unlike courts, is
institutionally equipped for conducting a neutral, wide-ranging
investigation.” Bean, 537 U.S. at 77.

14

Case: 17-3010

Document: 003113269205

Page: 15

Date Filed: 06/20/2019

background that distinguish his circumstances from those of
persons in the historically barred class.” 40
Beers has not been able to do so. Even though he claims
to be rehabilitated, Beers cannot distinguish himself from the
historically-barred class of mentally ill individuals who were
excluded from Second Amendment protection because of the
danger they had posed to themselves and to others.
Section 922(g)(4) prohibits the possession of firearms
by anyone “who has been adjudicated as a mental defective or
who has been committed to a mental institution.” The Code of
Federal Regulations defines “adjudicated as a mental
defective” to include, among other definitions, “[a]
determination by a court, board, commission, or other lawful
authority that a person, as a result of . . . mental illness . . . [i]s
a danger to himself or to others . . ..” 41 The Code defines
“committed to a mental institution” as a “[f]ormal commitment
of a person to a mental institution by a court, board,
commission, or other lawful authority,” including
“commitment to a mental institution involuntarily” and
“commitment for mental defectiveness or mental illness.” 42
Because the Code has defined the terms employed in §
922(g)(4) and because Beers was committed involuntarily by
the Pennsylvania court to a psychiatric hospital in conformity
with 27 CFR § 478.11 and with 50 Pa. C.S. §§ 7302-7304, we
conclude that Beers has properly been identified as a member
of the class described in § 922(g)(4).

40

Binderup, 836 F.3d at 346-47 (internal citations omitted).
27 C.F.R. § 478.11.
42
Id.
41

15

Case: 17-3010

Document: 003113269205

Page: 16

Date Filed: 06/20/2019

To support our conclusion, we will review the
traditional justifications for prohibiting the mentally ill from
possessing guns in order to consider then if the imposition of
the § 922(g)(4) ban is justified.
A.

The Traditional Justifications for Excluding
Mentally Ill Individuals from Second
Amendment Protections

Traditionally, individuals who were considered
dangerous to the public or to themselves were outside of the
scope of Second Amendment protection. Although laws
specifically excluding the mentally ill from firearm possession
did not begin appearing until later, such laws were not
necessary during the eighteenth century.43 At that time,
judicial officials were authorized to “lock up” so-called
“lunatics” or other individuals with dangerous mental
impairments. 44
Thus, courts analyzing the traditional
justifications for disarming the mentally ill have noted that “if
taking away a lunatic’s liberty was permissible, then we should

43

See Carlton F.W. Larson, Four Exceptions in Search of A
Theory: District of Columbia v. Heller and Judicial Ipse Dixit,
60 HASTINGS L.J. 1371, 13773 (2009).
The tools of deduction employed here to conclude that
the mentally ill were historically-barred from gun ownership,
where there is little evidence of specific historic prohibitions,
are the same means we employed in Binderup. Indeed, laws
prohibiting felons from gun possession were also relatively
new. See Barton, 633 F.3d at 173.
44
Larson, supra note 43, at 1377-78 (citations omitted).

16

Case: 17-3010

Document: 003113269205

Page: 17

Date Filed: 06/20/2019

find the ‘lesser intrusion’ of taking his or her firearms was also
permissible.” 45
The historical record cited in Binderup supports this
conclusion. In Binderup, we turned to the precursor to the
Second Amendment, the Address and Reasons of Dissent of
the Minority of the Convention of the State of Pennsylvania to
Their Constituents. That Address states that citizens did not
have a right to bear arms if they had committed a crime. The
Address goes on to note that citizens were excluded from the
right to bear arms if they were a “real danger of public
injury.”46 We can therefore ascertain that the traditional
justification for disarming mentally ill individuals was that
they were considered dangerous to themselves and/or to the
public at large.
B.

Beers’s Circumstances

Having identified the traditional justification for
denying the mentally ill the right to arms—that they present a
danger to themselves or to others—we now ask whether Beers
has presented sufficient facts to distinguish his circumstances
from those of members in this historically-barred class. 47
Beers’s only bases for distinguishing himself, however, are
that a substantial amount of time has passed since he was
institutionalized and that he is now rehabilitated.
45

Jefferies v. Sessions, 278 F. Supp. 3d 831, 841 (E.D. Pa.
2017) (quoting Keyes v. Lynch, 195 F. Supp. 3d 702, 718 (M.D.
Pa. 2016)).
46
Binderup, 836 F.3d at 349 (quoting 2 Bernard Schwartz, The
Bill of Rights: A Documentary History 662, 665 (1971)).
47
Binderup, 836 F.3d at 349.

17

Case: 17-3010

Document: 003113269205

Page: 18

Date Filed: 06/20/2019

We established in Binderup that neither passage of time
nor evidence of rehabilitation “can restore Second Amendment
rights that were forfeited.” 48 There was no historical support
for the proposition that forfeited rights could be restored. 49
In Binderup, we held that a challenger to § 922(g)(1)
could distinguish his circumstances only by demonstrating that
he was not convicted of a serious crime, but not by
demonstrating that he had reformed or been rehabilitated. We
reached this conclusion after analyzing the historical
underpinnings of such a ban, which indicated that individuals
who had committed serious crimes were traditionally
prohibited from gun possession. Because the challengers in
Binderup had not committed serious crimes, a ban on their
right to bear arms was unconstitutional as it applied to them.
Passage of time and evidence of rehabilitation, however, had
no bearing on whether the challengers were convicted of
serious crimes. Such evidence, therefore, was irrelevant in our
analysis at step one.
Here, the historical underpinnings of § 922(g)(4) were
to keep guns from individuals who posed a danger to

48
49

Id. at 350
Id.

18

Case: 17-3010

Document: 003113269205

Page: 19

Date Filed: 06/20/2019

themselves or to others. 50 Beers was committed to a mental
institution for this very reason: he was suicidal, and a court
determined that he was a danger to himself or to others. The
doctor who examined Beers noted that inpatient treatment was
needed for Beers’s safety. Additionally, Pennsylvania courts
extended Beers’s involuntary commitment on two occasions.
Beers cannot distinguish his circumstances by arguing
that he is no longer a danger to himself or to others.
Acceptance of his argument would sidestep the ruling we made
in Binderup that neither passage of time nor evidence of
rehabilitation “can restore Second Amendment rights that were
forfeited.” 51 Instead, the only way Beers can distinguish his
circumstances is by demonstrating that he was never
determined to be a danger to himself or to others. This Beers
cannot do.
Moreover, the reasons that justified disregarding
passage of time or rehabilitation in Binderup apply here with
50

In Tyler v. Hillsdale County Sheriff’s Department, the Sixth
Circuit reached the opposite result to the one we reach here,
concluding that § 922(g)(4) burdened the Second Amendment
rights of the challenger, an individual who was also
involuntarily committed because of the danger he posed to
himself or to others. 837 F.3d 678, 683 (6th Cir. 2016) (en
banc). In reaching that conclusion, the Sixth Circuit found
lacking the historical support for prohibitions on the possession
of firearms by the mentally ill. Id. at 689-90. For the reasons
we have stated above, we disagree that there is an absence of
historical evidence that mentally ill individuals, who were
considered a danger to themselves or to others, were banned
from possessing guns.
51
Binderup, 836 F.3d at 350.

19

Case: 17-3010

Document: 003113269205

Page: 20

Date Filed: 06/20/2019

equal force. First, there is no historical support for such
restoration of Second Amendment rights. In addition, as was
the case in Binderup, federal courts are ill-equipped to
determine whether any particular individual who was
previously deemed mentally ill should have his or her firearm
rights restored. 52
Because Beers cannot distinguish his circumstances, we
conclude that § 922(g)(4) as applied to him does not burden
conduct falling within the scope of the Second Amendment. 53
Nothing in our opinion should be read as perpetuating
the stigma surrounding mental illness. Although Beers may
now be rehabilitated, we do not consider this fact in the context
of the very circumscribed, historical inquiry we must conduct
at step one. Historically, our forebearers saw a danger in
providing mentally ill individuals the right to possess guns.
That understanding requires us to conclude that § 922(g)(4) is
constitutional as applied to Beers.

52

Id. See supra n.39. We realize that state courts participate
in the involuntary commitment of mentally ill persons who are
a danger to themselves or to others, see, e.g., 50 Pa. C.S. §
7302. The federal courts do not, however, participate in such
commitments, nor do they have the resources to conduct
detailed investigations of an individual’s mental state or his
recent conduct. Cf. Pontarelli, 285 F.3d at 230-31 (holding
that, in regard to restoration of gun right to felons, federal
courts lack resources to conduct detailed investigations of
applicants’ background and their recent conduct.)
53
Beers therefore fails to surpass the first step of our Second
Amendment framework, and we need not proceed to step two.

20

Case: 17-3010

Document: 003113269205

Page: 21

Date Filed: 06/20/2019

CONCLUSION
For the foregoing reasons, we will affirm the judgment
of the District Court.

21

Case: 17-3010

Document: 003113345428

Page: 1

Date Filed: 09/11/2019

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 17-3010

BRADLEY BEERS;
JOSEPH DIVITA*,
Appellants
v.
ATTORNEY GENERAL UNITED STATES OF AMERICA;
DEPARTMENT OF JUSTICE; UNITED STATES BUREAU OF ALCOHOL
TOBACCO FIREARMS & EXPLOSIVES; THOMAS E. BRANDON,
Deputy Director of the ATF; RONALD B. TURK, Associates Deputy
Director/ Chief Operating Office of the ATF; FEDERAL BUREAU OF
INVESTIGATION; DIRECTOR FEDERAL BUREAU OF INVESTIGATION;
UNITED STATES OF AMERICA; PENNSYLVANIA ATTORNEY GENERAL;
PENNSYLVANIA STATE POLICE; TYREE BLOCKER,
Commissioner of the Pennsylvania State Police;
EDWARD DONNELLY, Bucks County Sheriff;
BUCKS COUNTY SHERIFFS DEPARTMENT; BUCKS COUNTY DISTRICT
ATTORNEY
*(Party Dismissed Pursuant to Court Order dated 02/13/18)

(D.C. Civil Action No. 2-16-cv-06440)

SUR PETITION FOR REHEARING

Case: 17-3010

Document: 003113345428

Page: 2

Date Filed: 09/11/2019

Present: SMITH, Chief Judge, MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ∗ROTH and ∗RENDELL, Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,

s/ JANE R. ROTH
Circuit Judge

Dated: September 11, 2019
PDB/cc: All Counsel of Record

∗

The votes of the Honorable Jane R. Roth and Marjorie O. Rendell are limited to panel
rehearing only.
2

